U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

April 28, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

American Civil Liberties Union v. United States of America,
S.Ct. No. 20-1499

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 19,
2021, and placed on the docket on April 27, 2021. The government’s response is due on May
27, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 28, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1499
AMERICAN CIVIL LIBERTIES UNION
USA

ALEX ABDO
KNIGHT FIRST AMENDEMENT INSTITUTE AT
COLUMBIA UNIVERSITY
475 RIVERSIDE DRIVE
SUITE 302
NEW YORK, NY 10015
212-854-9600
ALEX.ABDO@KNIGHTCOLUMBIA.ORG
DAVID D. COLE
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
915 15TH STREET, NW
WASHINGTON, DC 20005
212-549-2611
DCOLE@ACLU.ORG
THEODORE B. OLSON
GIBSON, DUNN & CRUTCHER LLP
1050 CONNECTICUT AVENUE, N.W.
WASHINGTON , DC 20036
202-955-8500
TOLSON @GIBSONDUNN.COM
DAVID A. SCHULZ
MEDIA FREEDOM & INFORMATION ACCESS
CLINIC
ABRAMS INSTITUTE
YALE LAW SCHOOL
P.O. BOX 208215
NEW HAVEN, CT 06520
203-436-5824
DAVID.SCHULZ@YALE.EDU

PATRICK C. TOOMEY
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
125 BROAD STREET
NEW YORK, NY 10004
CECILLIA D. WANG
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
39 DRUMM STREET
SAN FRANCISCO, CA 94111
CWANG@ACLU.ORG

